                                 Office of Inspector General
                                                    August-September 2013

Business Loans                               vestigation also determined that he           Virginia Man Sentenced in 504 Loan
                                             failed to properly verify the cash injec-     Program Fraud
Texas Couple Pleads Guilty to                tion and to provide the required proof
                                                                                           On August 27, 2013, a Virginia business
Conspiracy                                   that the loan proceeds were used ac-
                                                                                           owner was sentenced to 57 months in-
On August 9, 2013, a Texas husband and       cording to the agreed upon terms. This
                                                                                           carceration, 36 months supervised re-
wife each pled guilty to one count of        case was initiated based on a referral
                                                                                           lease, and ordered to pay a $400 special
conspiracy. An Order for Presentence         from the SBA National Liquidation &
                                                                                           assessment fee and $1,820,195 in resti-
Restitution was signed, and the defend-      Guaranty Purchase Center in Herndon,
                                                                                           tution, to be paid jointly and severally
ants paid $150,000. The investigation        VA. This is a joint investigation with the
                                                                                           with his two co-defendants. The man
revealed that the couple applied for and     U.S. Secret Service; the Federal Deposit
                                                                                           previously pled guilty on March 6, 2013,
received a $420,000 SBA-guaranteed           Insurance Corporation OIG; the Federal
                                                                                           to one count of conspiracy to defraud
loan to purchase a convenience store.        Bureau of Investigation (FBI); the U.S.
                                                                                           the United States, one count of conspir-
The husband purported to the lender          Immigration and Customs Enforcement,
                                                                                           acy to commit money laundering, and
that most of the cash injection was com-     Office of Investigations; and the Tampa
                                                                                           one count of structuring currency trans-
ing from the sale of a previously owned      Police Department.
                                                                                           actions. The investigation revealed that
convenience store. In reality, the couple                                                  he had participated in a multi-million
had depleted the majority of those funds                                                   dollar scheme involving bogus treasury
prior to closing on the loan. Further, the   Alabama Man Pleads Guilty in Case
                                                                                           checks and tax returns. In addition, he
wife secured lines of credit (LOC) from      Referred by the IRS-Criminal
                                                                                           misrepresented his citizenship status in
two banks using different company            Investigations
                                                                                           the course of obtaining a $149,000 SBA
names, and at least $91,269 of the           On August 15, 2013, an Alabama man
                                                                                           504 loan and a $203,000 bank loan. This
$146,359 cash injection was derived di-      pled guilty to five counts of wire fraud,
                                                                                           is a joint investigation with the FBI.
rectly from the LOC. In their dealings       four counts of false statements to the
with the SBA lender, the couple did not      SBA, three counts of false statements
disclose these additional debts, and they    on loan and credit applications, and one
                                                                                           Two Texas Men Plead Guilty to Fraud
certified the accuracy of false personal     count of money laundering. This case
                                                                                           On September 9, 2013, one Texas man
and business financial statements. The       was based on a referral from the Inter-
                                                                                           pled guilty to one count of conspiracy to
couple later filed for bankruptcy and        nal Revenue Service-Criminal Investiga-
                                                                                           commit wire fraud, while a second man
listed the above referenced LOC as part      tions (IRS-CI). According to the referral,
                                                                                           pled guilty to one count each of wire
of their $456,806 in unsecured debts.        a business, wholly owned by the man,
                                                                                           fraud and conspiracy to commit wire
                                             failed to file corporate or personal tax
                                                                                           fraud. The men were indicted on May 8,
                                             returns from 2002 through 2009. The
North Dakota Man Sentenced for Bank                                                        2013. The indictment alleged that the
                                             investigation revealed that the man
Fraud                                                                                      first man provided fraudulent bank
                                             provided false and unfiled tax returns to
On August 13, 2013, a North Dakota man                                                     statements to a bank when securing a
                                             a bank to secure a $300,000 SBA-
was sentenced to 15 months in prison,                                                      $990,000 SBA-guaranteed loan to pur-
                                             guaranteed LOC for his business. The
60 months supervised release, and or-                                                      chase a hotel. Some statements were
                                             LOC had an outstanding balance of
dered to pay $2,781,392 in restitution                                                     altered to show a significantly higher
                                             $80,876.42 when it was “charged off.”
and a $200 special assessment fee. The                                                     account balance and others showed the
                                             Additionally, the man provided false
man previously pled guilty to one count                                                    man as the account holder when the
                                             corporate and personal tax returns to
of bank fraud and one count of making a                                                    account actually belonged to the second
                                             the SBA to qualify his business for initial
false entry in bank records. The man, a                                                    man who was the seller of the hotel.
                                             8(a) certification in June 2003 through
former loan officer at a bank, provided                                                    Further, the indictment alleged that the
                                             September 2008. This is a joint investi-
inaccurate and misleading information in                                                   seller secretly funded the buyer’s full
                                             gation with the U.S. Army, Criminal In-
order to secure a $2 million SBA-                                                          cash injection, attempting to disguise
                                             vestigation Command, IRS-CI, and the
guaranteed loan for a business. The in-                                                    money loaned to the buyer as consulting
                                             Defense Criminal Investigative Service.
                                                                                                                  Page 2

                     fees and sales commissions.       loan was from a different         Recovery Act
                     In July 2009, the buyer re-       lending institution and all the
                     ceived a second SBA-              loans have been charged-off.      California Woman Sentenced
                     guaranteed loan for $510,000      The man obtained these            on False Statements
                     to make improvements and          loans in the names of two
                     additions to the hotel. Again,    fictitious companies. This is a   On September 3, 2013, a Cali-
                     the seller allegedly supplied     joint investigation with the      fornia woman was sentenced
                     the funds for the buyer’s cash    IRS-CI, the Englewood New         to three months imprison-
                     injection. Records in the loan    Jersey Police Department,         ment and one year of super-
                     file also identified the seller   and the Bergen County Prose-      vised release. The woman
                     as the general contractor         cutor’s Office.                   was also ordered to serve 200
                     handling the construction                                           hours of community service
                     project, in spite of his claim                                      and to pay $1,179,525.22 in
                     that he was planning to leave     Man Sentenced for Theft
                                                                                         restitution and a $100 special
                     the United States.                Related to SBIC Program
                                                                                         assessment fee. The woman
                                                                                         pled guilty to one count of
                                                       On September 23, 2013, a
                                                                                         making false statements to a
                     New Jersey Man Sentenced          Kentucky man was sentenced
                                                                                         federally insured bank. The
                     for Conspiracy to Commit          to time previously served and
                                                                                         investigation revealed that
                     Bank Fraud                        three years of supervised
                                                                                         that the woman failed to dis-
                                                       probation. He was also or-
                     On September 9, 2013, a New                                         close liabilities owed to
                                                       dered to pay $59,567.11 in
                     Jersey man was sentenced to                                         friends and family and past-
                                                       restitution to the SBA. On
                     24 months in prison and 36                                          due tax debt in her applica-
                                                       June 26, 2013, the man pled
                     months probation. The man                                           tion for a $1,750,000 bank
                                                       guilty to three counts of theft
                     was also ordered to pay resti-                                      loan to consolidate business
                                                       and one count of false state-
                     tution of $154,623 and a spe-                                       debt and acquire working
                                                       ments on a loan application.
                     cial assessment fee of $100.                                        capital. The SBA guaranteed
                                                       He was indicted on these
                     The man previously pled                                             this loan using American Re-
                                                       charges on December 4,
                     guilty on March 6, 2013, to a                                       investment and Recovery Act
                                                       2012. The investigation re-
                     criminal information charging                                       funds.
                                                       vealed that the SBA appoint-
                     him with one count of con-
 New Jersey Man                                        ed the man and his company
                     spiracy to commit bank fraud.
                                                       to liquidate a portfolio of       California Man Sentenced for
Sentenced for Bank   The investigation revealed
                                                       small business concerns of an     Falsifying Loan Application
                     that an organized group of
      Fraud                                            investment firm, pursuant to
                     criminals was obtaining credit
                                                       the Small Business Invest-        On September 30, 2013, a
                     cards and loans from various
                                                       ment Company Program.             California man was sentenced
                     lending institutions using
                                                       From 2008 to 2010, the man        to three months in prison,
                     false identities, documents,
                                                       diverted the proceeds of          three months home confine-
                     and business names. Loan
                                                       sales from the investment         ment, and two years of su-
                     officers at various banks were
                                                       firm’s small business con-        pervised release. He was also
                     also     involved     in   the
                                                       cerns into a fraudulently         ordered to pay restitution of
                     scheme. Many of the loans
                                                       opened bank account and           $47,747. The man pled guilty
                     were SBA-guaranteed under
                                                       converted those proceeds for      to knowingly falsifying mate-
                     the Express Loan program
                                                       his personal use. The divert-     rial facts in a loan application
                     and are in default. The man,
                                                       ed funds exceeded $59,000.        with the SBA. In March 2009,
                     as a member of this group,
                                                                     ***                 the man, doing business as a
                     obtained        three     SBA-
                     guaranteed Express loans                                            cabinet company, applied for
                     totaling $130,000, as well as a                                     a $50,000 SBA-guaranteed
                     $25,000 non-SBA loan. Each                                          small business loan under the
                                                                                                                          Page 3

American Recovery and Rein-       sub-contractor submitted a         contracts.    The settlement
vestment Act of 2009. The         $9.4 million bid to do mason-      amount was based on an abil-
man signed the SBA forms to       ry work for the prime con-         ity to pay analysis conducted
certify that the information      tractor. An employee of the        by the Department of Justice
contained in his application      prime contractor subsequent-       and is in lieu of a potential
was true and complete. How-       ly told the chief financial        claim amount of $18,145,659.
ever, the man misrepresent-       officer of the masonry firm        This is a joint investigation
ed his criminal history by cer-   that his company would re-         with the Department of Jus-
tifying that he never been        ceive the subcontract if it        tice and the Department of
involved in bankruptcy pro-       used a minority-owned com-         Homeland Security (DHS)
ceedings when in fact, he         pany. The CFO agreed to use        OIG.
had.                              an affiliated company, one
                                  that he controlled, to receive
                                  the subcontract. All of the        Trial Nets Convictions for
Government                        work on the subcontract            President and Shareholder of
Contracting                       passed through the affiliated      Idaho Firm
                                  firm to the masonry compa-
                                                                     On September 19, 2013, after
North Carolina Men Plead          ny. This is a joint investiga-
                                                                     a 26-day trial, the president
Guilty to False Statements        tion with the DCIS and the
                                                                     and majority stockholder of
                                  Naval Criminal Investigative
On September 4, 2013, the                                            an Idaho construction firm
                                  Service.
chief financial officer and the                                      and a minority shareholder in
president of a North Carolina                                        the firm were each found
masonry firm pled guilty to a                                        guilty on all counts charged in
                                  Florida Firm Enters Civil
criminal information, filed on                                       a Superseding Indictment
                                  Settlement in SDVOSB Case
July 17, 2013, charging each                                         filed on May 17, 2013. The
of them with a one count of       On September 11, 2013, a           president’s convictions in-        26-Day Trial Ends in
false statements. The de-         civil settlement was reached       cluded four counts of filing
                                                                                                        Conviction of Two
fendants, representing a sub-     between a Florida business         false individual and corporate
contracting firm, caused the      and the U.S. Attorney’s            tax returns, two counts of
prime contractor of a federal     Office. In the settlement, the     conspiracy to defraud the
contract at Camp Lejeune,         company agreed to pay the          United States, five counts of
North Carolina, to make a         United States $50,000 plus         wire fraud, five counts of mail
false statement to the De-        1% of its total annual reve-       fraud, one count of false
partment of the Navy. Spe-        nues from 2014 through             statements, three counts of
cifically, the prime contractor   2018. The civil suit was based     interstate transportation of
claimed to have successfully      on the allegation that the         property taken by fraud, one
met its small business sub-       company obtained govern-           count of conspiracy to ob-
contracting goals when it had     ment contracts for which it        struct justice, and one count
not. The investigation re-        was not eligible. These con-       of obstruction of justice. The
vealed that in early 2011, the    tracts had been “set aside”        minority shareholder was
Naval Facilities Engineering      for award to service-disabled,     found guilty of two counts of
Command            Mid-Atlantic   veteran-owned small busi-          obstruction of justice and one
(NAVFAC) in Norfolk, Virginia,    nesses (SDVOSB). The firm          count of conspiracy to ob-
issued a “Solicitation, Offer     was determined to be ineligi-      struct justice.
and Award” for a series of        ble for these contracts based
                                                                     The investigation disclosed
construction      projects at     on its affiliation with two oth-
                                                                     that president took steps to
Camp Lejeune. This contract,      er firms, which were both
                                                                     lower, artificially, her person-
valued at over $67 million,       large companies. The investi-
                                                                     al net worth, such as acquir-
was awarded to a prime con-       gation revealed that the two
                                                                     ing, holding, and transferring
tractor in August 2011. The       other firms conducted the
                                                                     assets into the names of
                                  majority of the work on these
                                                                                                                                Page 4


nominees in order to appear        and deceptive practices with      million in SDVOSB set-aside        by her family members. This
to be economically disadvan-       respect to government con-        contracts from the U.S. De-        is a joint investigation with
taged. This allowed her con-       tracting. The man, a service-     partment of Veteran Affairs.       DHS OIG.
struction company to qualify       disabled veteran, was hired       The investigation also re-
for the Department of Trans-                                                                                         ***
                                   to serve as the figurehead        vealed that the firm was not
portation’s (DOT) Disadvan-        president of the contracting      controlled by a service-
taged Business Enterprises         firm to qualify the company       disabled veteran but acted as
(DBE) and SBA’s 8(a) pro-          as an SDVOSB. As an SDVOSB,       a shell company in order for
grams. The president also          the firm obtained govern-         second firm to receive
filed false and fraudulent tax     ment contracts and served as      SDVOSB set-aside contracts,
returns that did not report all    a pass through for another        which it was not qualified to
income she or the business         construction company. The         receive. The vast majority of
received. The false returns        man, however, was not in-         work awarded to the con-
and financial statements           volved in the daily operations    tracting firm was passed
were submitted in support of       nor did he control the compa-     through to the second firm.
the business’ applications to      ny. He was paid a small per-      This is a joint investigation
the SBA 8(a) Program and the       centage of the income from        with the GSA OIG and the VA
DBE Programs for Idaho and         the contracts for his services.   OIG.
Utah. The business received        The pre-trial diversion agree-
more than $2.5 million in          ment calls for the deferment
federal government contracts       of prosecution for a period of
based on the company's
                                                                     Disaster
                                   18 months during which time
fraudulently obtained SBA 8        the man must abide by cer-        Texas Woman Sentenced for
(a) status, and more than $15      tain conditions. One condi-       Theft of Government Funds
million in state government        tion, which the man has al-                                               Ineligible Firm Pleads
contracts based on the com-        ready met, was to make resti-     On September 13, 2013, a
pany's fraudulently obtained                                                                                Guilty to Conspiracy to
                                   tution payments totaling          Texas woman was sentenced
DBE status in the states of        $21,610.20, to cover the cost     to 18 months imprisonment                    Defraud the
Idaho and Utah. The govern-        of investigative activities, to   and 3 years supervised re-
ment          is        seeking                                                                                Government After
                                   the three federal agencies        lease. She was also ordered
$9,237,722.10 in forfeiture        involved in the investigation.    to pay $96,900 in restitution          Receiving $3.4 Million in
from the woman, which rep-         This is a joint investigation     as a result of her February 20,
resents the proceeds ob-                                                                                      Set-Aside Contracts
                                   with the General Services         2013, guilty plea to one count
tained as a result of her crimi-   Administration OIG and the        of theft of government funds.
nal conduct. This is a joint       Veteran’s Administration (VA)     The investigation disclosed
investigation with the IRS-CI,     OIG.                              that the woman altered re-
DOT OIG, and the FBI.                                                pair invoices and filed them
                                                                     with the SBA in support of a
                                   Missouri Firm Pleads Guilty       $97,385 disaster loan she
Missouri Man Enters                to Conspiracy to Defraud the      received for her Violet, Louisi-
Pre-Trial Agreement                Government                        ana residence, which was
 in SDVOSB Fraud                                                     damaged by Hurricane Katri-
On September 20, 2013, the         On September 27, 2013, a
                                                                     na. In addition, in November
president of a Missouri con-       Missouri contracting firm was
                                                                     2012, the woman was con-
tracting firm entered into a       charged and pled guilty to
                                                                     victed in Texas for misprision
pre-trial diversion agreement      one count of conspiracy to
                                                                     of a felony. She was sen-
with the U.S. Attorney’s           defraud the U.S. Govern-
                                                                     tenced to three years super-
Office. The agreement re-          ment.      The investigation
                                                                     vised release for participating
flects that the president ac-      showed that the firm, which
                                                                     in a similar scheme involving
cepted responsibility for par-     was not a legitimate SDVOSB,
                                                                     SBA disaster loans obtained
ticipating in false, fraudulent,   received approximately $3.4
                                                                                                                                  Page 5


Agency Management
Audit Report 13-18
On September 27, 2013, the OIG issued Audit Report 13-18, The SBA Did Not Effectively Manage Defaulted Disaster Loans to Max-
imize Recovery from 2006 to 2011. The objective of this audit was to determine whether the Small Business Administration Nation-
al Disaster Loan Resolution Center: (1) effectively managed delinquent disaster loans to maximize recovery and minimize losses,
(2) complied with applicable laws and regulations, and (3) had a mission aligned with Federal debt collection objectives.

The OIG determined that the SBA National Disaster Loan resolution Center (NDLRC) did not effectively manage delinquent disaster
loans to maximize recovery and minimize losses. During the five-year period from June 2006 through June 2011, the NDLRC
charged off approximately 9,035 defaulted disaster loans. The OIG estimates that at least 7,198 of these loans, totaling $752.6 mil-
lion, were charged off without using all appropriate collection tools to maximize recovery.

The OIG concluded that the SBA was not successful in maximizing recovery because management did not: (1) align the NDLRC mis-
sion with Federal debt collection objectives; (2) adhere to existing controls, including Standard Operating Procedures (SOPs); (3)
include requirements of the DCIA in the SOP; (4) provide oversight of loan collateral, or have an effective Management Information
System to monitor and track the collateral, (5) ensure that staff were properly trained; or, (6) ensure that management and staff
performance goals emphasized effective debt recovery.


Audit Report 13-19
On September 27, 2013, the OIG issued Audit Report 13-19, Evaluation of SBA’s Implementation of the GPRA Modernization Act of
2010. The objective of this evaluation was to determine if the SBA met statutory reporting requirements of the Modernization Act
in its 2014 Agency Performance Plan and 2012 Agency Performance Report.
The OIG evaluated the SBA’s Performance Management reporting, to include its 2013 and 2014 Agency Performance Plans, 2011
and 2012 Agency Performance Reports, and Agency Quarterly Performance Update presentations. The OIG also evaluated a limited
sample of program performance indicators to understand how performance information is reported to the SBA Performance Man-
agement Office. The OIG performed this review in accordance with Quality Standards for Inspection and Evaluations issue by the
Council of the Inspectors General on Integrity and Efficiency. The OIG found the SBA to be generally compliant with the GPRA
Modernization Act’s reporting requirements; however, the OIG identified omissions in a few areas. The OIG made one recommen-
dation to help improve the SBA’s GPRA Modernization Act Reporting.


Audit Report 13-20
On September 30, 2013, the OIG issued Audit Report 13-20, The Small Business Administration’s Controls Over Cash Gifts. The SBA
has gift authority under sections 4(g), 8(b)(1)(G), 5(b)(9) and 7(k)(2) of the Small Business Act (the Act). The objective of this review
was to assess whether the SBA was following established procedures for soliciting, accepting, holding, and utilizing cash gifts in
fiscal year 2012. Section 4(g)(2) of the Act provides that any gift, devise, or bequest of cash accepted by the Administrator shall be
held in a separate account and shall be subject to semi-annual audits by the Inspector General who shall report his or her findings
to Congress.
The OIG determined the SBA adequately complied with the Act regarding the acceptance, holding, and utilization of cash gifts. The
responsible SBA officials determined the gifts were something the Agency could use and that its use would further the mission of
the Agency. The non-federal organizations that gifted cash donations were properly vetted through the SBA’s program offices to
ensure no business relationships existed that would cause a conflict of interest in accordance with the Act.
During the 2011 review, the OIG noted that the SBA had not had permanent procedures on gift acceptance in place since 2007. The
OIG also noted that the procedural notice that prescribes SBA’s control over the B Assistance Trust (BAT) Fund expired in 2005. The
OIG previously recommended that the SBA’s Office of General Counsel collaborate with the Offices of the Chief Financial Officer
and Strategic Alliances to issue SOP 90 53 to include procedures for soliciting, accepting, depositing, expending, and tracking ex-
penditures, as well as documentation retention requirements for cash gifts. During the FY 2012 review, the OIG found that the SBA
still had not issued this SOP.
                                                                                                                                   Page 6

Audit Report 13-21
On September 30, 2013, the OIG issued Audit Report 13-21, The Small Business Administration’s Enterprise-wide Controls Over its
Cosponsored Activities. The objective of this limited scope audit was to determine the adequacy of controls over the SBA’s cospon-
sored activities in accordance with federal laws, regulations, and policies. The OIG did not assess the validity and eligibility of indi-
vidual expenses for the cosponsored activities.
The OIG determined that for its cosponsored activities, the SBA did not fully implement effective controls to comply with the re-
quirements stipulated in Title 13, Part 106 of the Code of Federal Regulations (CFR) and SOP 90 75 3, Outreach Activities. Specifi-
cally, the SBA did not (1) consistently vet and perform conflicts of interest determinations, (2) report on the results of its activities
within established timeframes, and (3) control excess funds that remained at the conclusion of those activities.
The OIG concluded that opportunities exist to strengthen SBA’s controls over cosponsored activities that include:
         • Fully implementing additional controls over cosponsorship approval and closeout procedures;
         • Strengthening controls over the maintenance of official cosponsorship files to ensure that all required documentation is
           obtained; and
         • Performing effective Quality Service Reviews on all cosponsored activities to ensure that laws, regulations, and SBA
           policy were followed.
To help implement stronger controls and oversight of cosponsored activities, the OIG made eight recommendations to several SBA
officials.


Audit Report 13-22
On September 30, 2013, the OIG issued Audit Report 13-22, Improved Examination Quality Can Strengthen SBA’s Oversight of
Small Business Investment Companies. During survey work, the OIG identified deficiencies in the management of the SBIC exami-
nation process and as a result, the OIG developed a reporting objective to identify key challenges the Office of Investments and
Innovation (OII) faced in executing its SBIC examination function.


The OIG found that improvements to SBA processes could enhance the extent to which the Office of SBIC Examinations identifies
business conditions and practices prohibited by the Small Business Act and Agency policy. Specifically, the OIG found that the
SBA’s focus on the frequency of examinations as a strategy for reducing risk did not include a compensating control to ensure that
examinations conducted would result in accurate assessments of regulatory compliance. With a greater emphasis on quantity, the
OSE runs the risk that the review of an SBIC may be inaccurate or incomplete. To this point, the significant decrease in examina-
tion reports with findings could indicate that the quality of these assessments has suffered. Outdated guidance and incomplete
examination checklists also affected the quality of the SBIC examination process. The examiners were impacted by challenges in
the areas of strategic planning, training, technology, communication and funding. These challenges, coupled with an emphasis on
quantity resulted in examiners not identifying all findings. The OIG made three recommendations.
                                                                                  Page 7




                    Office of Inspector General
                        Peggy E. Gustafson
                         Inspector General
                                    ***
 To promote integrity, economy, and efficiency, we encourage you to report
 suspected instances of fraud, waste, abuse, or mismanagement in any SBA
                       program to the OIG Hotline* at
          http://www.sba.gov/office-of-inspector-general/2662

             Or call the OIG Hotline toll-free, at (800) 767-0385


*In accordance with Sections 7 and 8L(b)(2)(B) of the Inspector General’s Act,
confidentiality of a complainant’s personally identifying information is
mandatory, absent express consent by the complainant authorizing the release of
such information.




We welcome your comments concerning this update or other OIG publications.
        To obtain copies of these documents please contact us at:

                                  SBA OIG
                       409 Third Street SW, 7th Floor
                          Washington, DC 20416
                           E-mail: oig@sba.gov
              Telephone: (202) 205-6586 FAX (202) 205-7382
            Many OIG reports can be found on the OIG’s website at
              http://www.sba.gov/office-of-inspector-general

       To view recent press releases, click here, or visit our website at
            http://www.sba.gov/office-of-inspector-general/17611
